W A I V E R
SUPREME COURT OF THE UNITED STATES
No.

20-1176

Trustees of the Thomas E. Proctor Heirs Trust
(Petitioner)

Keta Oil & Gas Company
(Respondent)

V.

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
SWN Production Company, LLC

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

David R. Fine

Date:

3/16/21

Digitally signed by David R. Fine
Date: 2021.03.29 08:40:18 -04'00'

(Type or print) Name David R. Fine
Mr.

Ms.

Mrs.

Firm

K&L Gates LLP

Address

17 North Second Street, 18th Floor

City & State

Harrisburg, PA

Phone

(717) 231-5820

Miss

Zip 17101
Email

david.fine@klgates.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

cc:

Paul K. Stockman, Esq.
Laura A. Lange, Esq.

